docket no.:
Supreme Court of the United States

SEPIDEH CIRINO
Petitioner,
v.
OCWEN LOAN SERVICING, LLC, et al.
Respondents.

On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the Ninth Circuit
Ninth Circuit case no. 19-55817
U.S. Dist. Ct., C.D. Cal., case no. 16-cv-00409

CERTIFICATE OF SERVICE

Sepidah Cirino
27495 Hidden Trail Road
Laguna Hills, CA 92653-5875
(949)238-3774
In Pro Se

CERTIFICATE OF SERVICE
STATE OF CALIFORNIA, COUNTY OF ORANGE
I am over the age of 18 years, and not a party to this action. My address is 27495 Hidden
Trail Road, Laguna Hills, CA 92653.1 have personal knowledge of the facts upon which I make
this declaration, and if called upon to testify, under oath, I could and would competently testify
thereto.
I certify that on March
2021,1 served the accompanying documents, i.e.
1.
2.

PETITION FOR WRIT OF CERTIORARI and
CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS
- on the interested parties and courts in this action, as follows:
0 (service by mail) By placing a copy or copies thereof (in the number indicated on the
attached service list) and enclosing in a sealed envelope, addressed as indicated on the
attached service list, with postage thereon fully paid, and depositing in the U.S. Mail.
□ (service by personal delivery) By placing a true copy or copies thereof (in the number
indicated on the attached service list) and enclosing in a sealed envelope, addressed as
indicated on the attached service list, and personally delivering to the addressee or his or her
authorized agent.

I declare under penalty of perjury under the laws of the United States and of the State of
California that the foregoing is true and correct. Executed this 23 day of March 2021, at
Laguna Hills, California.

SERVICE LIST

United States Supreme Court
Attn: Clerk of the Court
1 First St. NE
Washington, D.C. 20543

Original (the additional copies are not
served due to COVID 19 restrictions)

Gary E Devlin
Hinshaw and Culbertson LLP
11601 Wilshire Boulevard Suite 800
Los Angeles, CA 90025

Counsel for Respondents
Three Copies

310-909-8000
Fax:310-909-8001
Email: gdevlin@hinshawlaw.com
Clerk’s Office,
U.S. Court of Appeals, 9th Circuit
95 7th Street
San Francisco, CA 94103

The Appellate Clerk conveyed that the
Appellate Court does not require a copy.
As such, copies are not being served on the
Appellate Court. This statement is solely for
informational purposes.

Clerk’s Office,
U.S. District Court, C. D. Cal.
411 West Fourth Street
Santa Ana, CA 92701

One Copy

2

